<html>
<title> - NUCLEAR INCIDENT RESPONSE TEAMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    NUCLEAR INCIDENT RESPONSE TEAMS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON PREVENTION
                       OF NUCLEAR AND BIOLOGICAL
                                 ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2005

                               __________

                           Serial No. 109-50

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
35-337                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island, 
Christopher Shays, Connecticut       Ranking Member
Daniel E. Lungren, California        EdwarD J. Markey, Massachusetts
Jim Gibbons, Nevada                  Norman D. Dicks, Washington
Rob Simmons, Connecticut             Jane Harman, California
Bobby Jindal, Louisiana              Eleanor Holmes Norton, District of 
Charlie Dent, Pennsylvania           Columbia
Peter T. King, New York (Ex          Donna M. Christensen, U.S. Virgin 
Officio)                             Islands
                                     Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     3
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    15
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    12

                               Witnesses
                                Panel I

Mr. Joseph Krol, Associate Administrator, National Nuclear 
  Security Administration, U.S. Department of Energy:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Mr. John Lewis, Deputy Assistant Director, Federal Bureau of 
  Investigation, U.S. Department of Justice:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8


                    NUCLEAR INCIDENT RESPONSE TEAMS

                              ----------                              


                       Thursday, October 27, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
                      Subcommittee on Prevention of Nuclear
                                     and Biological Attack,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:29 p.m., in 
Room B-300, Rayburn House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Dent, Langevin, Thompson, 
and Dicks.
    Mr. Linder. [Presiding.] The hearing of the Homeland 
Security, Subcommittee on Prevention of Nuclear and Biological 
Attack will begin.
    I would like to welcome and thank our witnesses for 
appearing before this subcommittee today.
    Estimates show that a small nuclear device detonated in a 
large metropolitan area will produce hundreds of thousands of 
casualties, destroy critical infrastructure, force millions to 
evacuate, contaminate thousands of square miles, and extract 
untold billions of dollars from the U.S. economy. These are, 
however, mere estimates.
    No one knows the true cost of such an attack, only that the 
price is far too high to pay. The United States has for a long 
time lived under the threat of a nuclear attack. Although 
overshadowed during the Cold War by the threat of mutually 
assured destruction, concern over a clandestine nuclear attack 
on one of our cities existed throughout these dark years.
    In April 1974, in Boston, Massachusetts, police received a 
letter stating that atomic bomb with a yield equivalent to 500 
kilotons of TNT had been planted somewhere in the city and 
would be detonated unless the author receive $200,000 in small 
bills. Officials from the national laboratories, equipped with 
nuclear detectors, swarmed the city to try to find the device.
    The event turned out to be a hoax, but established a need 
for dedicated teams to be ready to search for a nuclear device. 
This event marked the beginning of a number of nuclear-search 
programs, which are now collectively referred to as Nuclear 
Incident Response Teams, NIRT.
    The NIRT program was codified by the 2002 Homeland Security 
Act and led to the Department of Homeland Security having a 
nuclear radiological response capability. These teams consist 
of specialized personnel drawn from the Departments of Energy 
and Defense and the FBI, depending on the particulars of the 
mission.
    We are pleased to have representatives from two of these 
organizations with us here today.
    While these teams have existed in one form or another for 
many years, their work has never been more vital than it is 
now. The possibility of a terrorist nuclear attack is at an 
all-time high.
    We must ensure that the Department of Homeland Security 
expands its nuclear-detection capabilities at the border and 
elsewhere, and is fully engaged with the long-standing 
programs, such as those as NIRT. We must do all we can to 
detect fissile material smuggling and, should that material be 
in a form of an explosive device, be prepared to render it 
inoperable immediately.
    Interagency coordination and action must be swift and 
decisive. It is a rare opportunity to save perhaps tens of 
thousands of lives through a simple act of intervention. We 
must ensure that all of the many pieces of our national 
response work seamlessly toward that outcome.
    That is precisely what this subcommittee will focus on 
today, and I look forward to the testimony of the witnesses.
    And I now recognize my friend from Rhode Island, Mr. 
Langevin, for the purpose of an opening statement.

                 Prepared Statement of Hon. John Linder

    I would like to welcome and thank our witnesses for appearing 
before this Subcommittee today.
    Estimates show that a small nuclear device detonated in a large 
metropolitan area would produce hundreds of thousands of casualties, 
destroy critical infrastructure, force millions to evacuate, 
contaminate thousands of square miles, and extract untold billions of 
dollars from the U.S. economy.
    These are, however, mere estimates. No one knows the true costs of 
such an attack--only that the price is far too high to pay.
    The United States has, for a long time, lived under the threat of 
nuclear attack. Although overshadowed during the Cold War by the threat 
of mutually assured destruction, concern over a clandestine nuclear 
attack on one of our cities existed throughout those dark years.
    In April 1974, Boston, Massachusetts, police received a letter 
stating that an atomic bomb with a yield equivalent to 500 kilotons of 
TNT had been planted somewhere in the city and would be detonated 
unless the author received $200,000 in small bills. Officials from the 
national laboratories equipped with nuclear detectors swarmed the city 
to try to find the device. The event turned out to be a hoax, but it 
established the need for dedicated teams to be ready to search for a 
nuclear device.
    This event marked the beginning of a number of nuclear search 
programs which are now collectively referred to as Nuclear Incident 
Response Teams (NIRT). The NIRT program was codified by the 2002 
Homeland Security Act to provide the Department of Homeland Security 
with a nuclear-radiological response capability.
    These teams consist of specialized personnel drawn from the 
Departments of Energy and Defense, and the Federal Bureau of 
Investigation, depending on the particulars of the mission. We are 
pleased to have representatives from two of these organizations with us 
here today.
    While these teams have existed in one form or another for many 
years, their work has never been more vital than it is now. The 
possibility of a terrorist nuclear attack is at an all time high. We 
must ensure that as the Department of Homeland Security expands its 
nuclear detection capabilities at the borders and elsewhere it is fully 
engaged with long standing programs such as those of NIRT. We must do 
all we can to detect fissile material smuggling, and, should that 
material be in the form of an explosive device, be prepared to render 
it inoperable immediately.
    Interagency coordination and action must be swift and decisive. It 
is a rare opportunity to save perhaps tens of thousands of lives 
through a single act of intervention. We must ensure that all of the 
many pieces of our national response work seamlessly toward that 
outcome. That is precisely what this Subcommittee will focus on today, 
and I look forward to the testimony of our witnesses.
    I now recognize the Ranking Member of the Subcommittee, Mr. 
Langevin of Rhodes Island, for the purpose of making an opening 
statement.

    Mr. Langevin. Thank you, Mr. Chairman.
    I would like to welcome our witnesses here today, and I 
certainly look forward to your testimony.
    Today's hearing will examine our government's ability to 
prevent a nuclear attack in the event a nuclear weapon is in 
the United States. Searching for a nuclear weapon inside of the 
United States is extremely difficult, given the size of our 
country and the many locations that a terrorist could strike.
    The difficulty of this search was highlighted in a recent 
movie produced by the Nuclear Threat Initiative called ``The 
Last Best Chance.'' In this movie, the President learns that 
al-Qa'ida had been pursuing and acquiring nuclear devices from 
several different fronts and as well as building a nuclear 
device.
    And, in fact, in this movie, al-Qa'ida had purchased a 
nuclear device on the black market and planned to conduct an 
attack within the United States. The movie ends with the weapon 
crossing the northern border in an SUV on its way to an 
American city.
    The scene is chilling, because it causes one to question 
whether our government has the ability to locate such a weapon 
once it is the country. One thing that the movie highlights, 
and our work on the subcommittee has underscored, is that 
intelligence is key, if our government has any chance to 
prevent a nuclear terrorist attack.
    There has been numerous articles on a nuclear emergency 
support teams which state that, after 9/11, these teams are 
deployed based on intelligence that was not corroborated to 
determine whether a threat was valid. In addition, incidents 
like the one that occurred last week in Baltimore make me 
wonder whether our intelligence community has improved enough 
to be able to give our federal officials the tactical 
intelligence required to thwart an attack.
    I would like to hear from our witnesses what steps are 
being taken to develop our intelligence capability to meet the 
nuclear terrorist threat.
    Second, our government must be organized in a way that 
forces coordination and eliminates confusion. Section 504 of 
the Homeland Security Act of 2002 gives the Department of 
Homeland Security authority over Nuclear Incident Response 
Teams. DHS, however, does not have the management or budgetary 
authority over these teams.
    Adding to the bureaucratic challenge, the FBI is the lead 
federal agency for intelligence-driven events involving weapons 
of mass destruction, while the Department of Defense plays a 
large role, as well. I would like to hear our witnesses' 
thoughts on the current model, specifically whether this 
committee should revisit the Homeland Security Act to eliminate 
any potential confusion that may occur in the event a team must 
respond to a nuclear terrorist threat.
    I look forward to hearing from Admiral Krol and Special 
Agent Lewis.
    And, Mr. Chairman, I want to thank you for holding this 
hearing on this all-important issue. Thank you very much, and I 
yield back.
    Mr. Linder. Did the gentleman from Mississippi have an 
opening statement?
    Other members are reminded that the committee--to submit a 
written report for the record.
    Our witnesses today are Admiral Joseph Krol, the associate 
administrator for emergency operations at the Department of 
Energy's National Nuclear Security Administration, and Mr. John 
Lewis, deputy assistant director of the Counterterrorism 
Division at the FBI.
    Admiral Krol.

                    STATEMENT OF JOSEPH KROL

    Mr. Krol. Thank you, Mr. Chairman, members of the 
committee.
    My name is Joseph Krol, and I am the associate 
administrator for emergency operations at the National Nuclear 
Security Administration. Our task, in this very important 
effort that you have both outlined in your statements, is to 
provide a detailed technical support organization that can 
operate in support of many organizations across the interagency 
to locate and render safe any type of nuclear device.
    I want to give you two major messages in my opening 
statement. The first is our integration across the interagency 
and our ability to work with a large group of government 
agencies. And, second, I want to give you a quick overview of 
our current capabilities.
    On the first item, we have a very strong interagency 
support organization that allows us to respond to a large 
variety of requests from anyone in the United States, including 
local authority and, of course, the government authorities that 
we work with.
    We primarily support the Department of Homeland Security, 
the Justice Department, the FBI, under Justice, and the Defense 
Department. But we have supported in the past Coast Guard, 
Customs, a whole variety of government agencies.
    Our primary support is the FBI, because, in most of these 
situations that arise, the FBI, by virtue of their 
investigatory powers in counterterrorism, ends up being the 
lead federal agency.
    Typically, the way these things come to us, over 90 percent 
of our deployments are requested by the FBI. Upon a request, we 
immediately inform the Department of Homeland Security that we 
are about to deploy. And, of course, the FBI does the same 
thing.
    We respond to intelligence-driven radiological incidents or 
potential incidents. There is a system in place, a program 
called National Significant Security Events, where known events 
that have high visibility, like national conventions, a lead 
federal agency would be appointed, and part of that support 
will be the radiological support that we provide.
    For example, over the last week, we have supported both 
venues for the World Series in Chicago and Houston. We do Super 
Bowls. We do G-8 conferences. Whatever the federal system 
identifies as a National Significant Security Event, we are at 
the table providing hardcore radiological search and 
monitoring.
    We also get involved in unexplained radiological events. 
They can be something as simple as a hot dog vendor--this has 
happened--on the street in New York that recently had a medical 
treatment. A policeman's pager went off, and we were called in 
to verify what the real radiological issue is.
    We do this with technical expertise from across the weapons 
complex. I have about 1,000 people that provide exacting 
technical expertise to do exacting nuclear search, radiological 
search, and, if we find a device, to Render Safe, using 
technical procedures, in support of the FBI or the Department 
of Defense. It is a joint team effort.
    We are not an organization that only has its capability on 
paper. We deploy on average about once a week to do various 
radiological things around the country in support of all manner 
of organizations, as I have told you. We also hold full dress 
rehearsal exercises that cause us to do our deployments. Our 
general rule for all our assets is 4 hours response time.
    We fly around the country using DOE aircraft, generally. 
And we have demonstrated our ability to do that in real 
training situations on numerous occasions. So this is a real 
capability that is constantly exercised and constantly deployed 
in support of various issues that may come up.
    With that, Mr. Chairman, I am very happy to be here. And I 
welcome your questions.
    [The statement of Mr. Krol follows:]

                  Prepared Statement of Joseph J. Krol

    Mr. Chairman and members of the Committee, my name is Joseph Krol 
and I am the Associate Administrator for Emergency Operations at the 
National Nuclear Security Administration. I am pleased to have this 
opportunity to present an overview of our nuclear incident response 
capabilities, emphasizing how we conduct our mission working with and 
supporting other United States Government agencies with a nuclear/ 
radiological counter-terrorism mission.
    As I begin, I want to emphasize that it is our strong inter-
relationship and close coordination with law enforcement entities and 
the intelligence community that enables our joint success in executing 
the United States counter-terrorism mission. Through pre-event planning 
and response coordination, the Departments of Homeland Security, 
Justice, Defense and Energy have demonstrated on-going success in event 
execution as exemplified by National Security Special Events, such as 
the National political conventions, where National Nuclear Security 
Administration assets supported both the Federal Bureau of 
Investigation and United States Secret Service; Special Events, such as 
the Olympics and National Football League Super Bowls, where National 
Nuclear Security Administration assets supported the Federal Bureau of 
Investigation and numerous other federal agencies; and a variety of 
other scheduled and unscheduled events, to include Federal Bureau of 
Investigation /Joint Terrorism Task Force requests for technical 
support within a city.
    It is important to note that the equity the National Nuclear 
Security Administration brings to bear on the nuclear/radiological 
counter-terrorism problem is technical expertise. Our core competencies 
include; (1) knowledge of U.S. nuclear weapons, radiological dispersal 
devices, and improvised nuclear devices with specific specialties in 
spectroscopy, device modeling, radiography and device assessment 
technology; (2) knowledge of technical operations such as explosive 
ordinance disposal procedures and techniques for device access, 
disablement, render safe, weapon recovery, and final disposition; and 
(3) knowledge of technical support requirements such as attribution, 
weapons effects, health and treatment capabilities and the technical 
evaluation of consequence management radiological data.
    Specific to the nuclear/radiological counter-terrorism mission, we 
offer mature technical capabilities to support Federal law enforcement 
to search for, locate, and render safe improvised nuclear devices. In 
order to support the increased number of requests since 9-11 for timely 
nuclear/radiological search, we have grown our search capability from 2 
search teams in one centralized location to 29 teams in numerous 
locations spread across the United States. If an incident requires a 
surge, we also have the capability to train and equip 60 searchers per 
day.
    Once a device is located, the ``render safe'' mission begins. This 
mission is conducted using well-documented and well-rehearsed policies 
and procedures among all levels of the National Nuclear Security 
Administration, the FBI, and the Department of Defense. It is because 
of National Nuclear Security Administration's equities in the U.S. 
nuclear weapons program that we provide the technical support for both 
the Federal Bureau of Investigation's and the Department of Defense's 
response teams. This support spans from nuclear design and materials 
training to the design and fabrication of specialized tools for 
accomplishing the render safe mission. Key to this effort is our 
technology integration and research and development programs where we 
develop and integrate new tools and techniques for device access and 
disablement.
    In closing, I would like to say a few words about our emerging 
mission and role. With the launching of the new Domestic Nuclear 
Detection Office (DNDO) by a Presidential Directive signed on April 15, 
2005, DOE/ National Nuclear Security Administration and DHS/DNDO have 
been afforded new opportunities as well as challenges to enhance our 
Nation's nuclear detection and response programs. Through the same kind 
of interagency cooperation and coordination about which I have already 
spoken, we at the DOE National Nuclear Security Administration 
Emergency Operations Office are working with DHS/DNDO in the joint 
development of: (1) better overall technical integration among the 
operative agencies in the event of a domestic incident, (2) closer 
coordination and cooperation in technology development and research and 
development activities for enhancing our detection capabilities, and 
(3) better detection reporting and communication among the key 
stakeholders such as, for example, through the Joint Center for Global 
Connectivity.
    Mr. Chairman, in concluding my statement, I would like to emphasize 
that since 9/11 we have made positive changes to improve our abilities 
to respond. What has not changed, however, is DOE/ National Nuclear 
Security Administration's continued close interagency working 
relationships and commitment to provide quality technical support for 
the nuclear/ radiological counter-terrorism mission.
    Mr. Chairman, I welcome your questions.

    Mr. Linder. Thank you, Mr. Krol.
    Mr. Lewis?

                    STATEMENT OF JOHN LEWIS

    Mr. Lewis. Good afternoon, Chairman Linder and members of 
the committee. I am pleased to be here to discuss the 
coordination between the FBI and other federal agencies in 
detecting and neutralizing potential terrorist threats 
involving nuclear weapons.
    You are all aware of the catastrophic consequences that 
would result if a nuclear device were detonated. Because of the 
severity of that threat, it is imperative that the FBI and our 
partner agencies have procedures and coordination mechanisms in 
place before the fact, in the event that we must respond to a 
potential nuclear threat or incident.
    We must combine our expertise in order to meet and defeat 
these threats. We must work together, and we are working 
together.
    Let me give you a brief overview of some of these joint 
efforts. The FBI has extensive liaison relationships with DHS, 
Department of Energy, and the Department of Defense. All of us 
play a vital role in resolving the nuclear crisis.
    As you know, special components within each agency provide 
critical support in the detection, analysis, mitigation and 
secure transport of a nuclear device. And when we respond to 
threats today, each and every response is fully coordinated 
with our colleagues.
    As one example, the FBI and DOE keep DHS apprised of the 
operational status and geographic disposition of DOE's nuclear 
search response assets. During potential incidents or periods 
of heightened alert, DHS will be fully aware of operational 
response activities. This ensures national-level integration, 
coordination and strategic focus.
    The FBI and DHS also have developed an operational 
agreement for coordinating nuclear and radiological detection 
and search operations. For a general threat response, where no 
specific geographic target has been identified, DHS will lead 
interagency coordination in developing courses of action and 
recommendations for the Secretary of Homeland Security and 
other officials.
    The FBI will assume tactical control or temporary authority 
of any nuclear search assets that are deployed. There are some 
specific exceptions to that, which I can explain later, if you 
desire.
    For a specific threat response of a time-sensitive nature, 
where credible information suggests a particular city or 
location may be a target, the FBI will immediately notify and 
coordinate mission-tasking with DHS and DOE. This facilitates 
the fastest possible federal government response. And DOE, on 
our behalf, will immediately deploy a tailored search tactics 
appropriate for the situation.
    As a side note, the DHS-managed Nuclear Assessment Program 
has also proven to be a very valuable asset in helping to 
determine the credibility of nuclear radiological threats. The 
FBI combines our own analysis with nuclear specialists and 
behavior analysts that we have on our staff to determine 
whether or not a threat is credible and how we may tailor our 
response.
    Whether the threat is general or specific, DHS may 
designate and send a liaison to the FBI's Strategic Information 
Operations Center, as well as the local field office command 
post. This DHS official will have full access to information 
and will participate in joint planning. The FBI will also keep 
the Homeland Security Operations Center fully informed.
    The FBI also participates in a number of interagency 
efforts to help prevent terrorists from accessing, using or 
smuggling nuclear weapons or materials. For instance, the FBI 
coordinates extensively with DHS in response to incidents 
involving possible detection of nuclear and radiological 
material at U.S. ports of entry.
    The FBI and DHS both maintain extensive reach-back 
capability to obtain rapid technical analysis of possible 
nuclear or radiological material from national laboratory 
experts who can immediately analyze this data.
    The FBI also participates in various joint training 
initiatives, exercises that bring federal, state, and local law 
enforcement and emergency management personnel together for 
training so that we are all prepared to coordinate our response 
to a nuclear incident, if so called upon.
    On the international level, the FBI trains foreign law 
enforcement officials to more effectively search, detect and 
interdict nuclear materials being illicitly transported. We are 
not the only ones that do this. DOE, I know, does this as well.
    And on a national level, the FBI's Nuclear Site Security 
Program requires each of our 56 field offices to establish 
close liaison with security personnel at critical nuclear 
facilities and to develop and exercise site-specific Internet 
response plans with them.
    The FBI has also assumed a leadership positions in the 
Domestic Nuclear Detection Office. The DNDO is an interagency 
effort with the goal of strengthening our collective capability 
to detect, report and respond to attempts that may involve the 
importation, assembly or transportation of a nuclear explosive 
device, fissile material, radiological material, any of which 
might be intended for illicit use.
    An FBI detailee currently serves as a director of the 
office of operations support at the DNDO. And in the near term, 
I will be dedicating additional FBI detailees there in several 
areas, including strategic planning, red-cell planning, 
information analysis, reach-back development, as well as 
training and protocol development. These are just a few of the 
FBI's interagency efforts.
    Chairman Linder and members of the committee, the FBI 
continues to work aggressively, both internally and with its 
partners at every level, to investigate, disrupt and respond to 
potential or actual nuclear threats. We, of course, are 
committed to deterring crime and terrorism and protecting our 
fellow citizens from the threat of nuclear weapons.
    We will do everything in our power to anticipate these 
threats and prevent them from becoming a reality.
    I wish to thank you again for having me here today. And I 
am pleased to answer any questions you may have.
    [The statement of Mr. Lewis follows:]

                  Prepared Statement of John E. Lewis

                              INTRODUCTION

    Good afternoon Chairman Linder and Members of the Committee. I am 
pleased to be here today to discuss the coordination between the 
Federal Bureau of Investigation and other federal agencies in detecting 
and neutralizing potential terrorist threats involving nuclear weapons.
    We are all well aware of the catastrophic consequences that would 
result if a nuclear device were detonated. Because of the severity of 
the threat, it is imperative that the FBI and our partner agencies have 
procedures and coordination mechanisms in place before the fact, in the 
event that we must respond to a potential nuclear threat or incident.
    The FBI is the lead law enforcement and investigative agency 
charged with responding to terrorist threats or incidents involving 
nuclear weapons or materials. However, no one agency can protect 
America from every threat--especially a threat as complex as a nuclear 
incident. We must combine our expertise with that of other federal 
agencies, in order to meet and defeat these threats. And we are working 
together. Let me give you a brief overview of some of our joint 
efforts.

 COORDINATION WITH THE DEPARTMENT OF HOMELAND SECURITY, THE DEPARTMENT 
                OF ENERGY, AND THE DEPARTMENT OF DEFENSE

    The FBI has extensive liaison relationships with the Department of 
Homeland Security (DHS), the Department of Energy (DOE), and the 
Department of Defense (DOD), all of which play a vital role in 
resolving a nuclear crisis. Specialized components within these 
agencies provide critical support in the detection, analysis, 
mitigation, and secure transport of a nuclear device. For example, DOE 
supports both the FBI and DHS by deploying mobile detection assets to 
search for nuclear/radiological materials and/or devices, and also 
provides high-end technical expertise. The FBI also has specialized 
response components from the Critical Incident Response Group and the 
FBI Laboratory. Officers assigned to these components regularly train 
together in order to ensure that we are all prepared ahead of time.
    The FBI also maintains a close working relationship with DHS, 
particularly with regard to coordinating the U.S. Government's response 
to nuclear threats and incidents. The Homeland Security Act of 2002 
requires that specialized DOE emergency response assets fall under the 
operational control of DHS when they are deployed in response to a 
potential nuclear incident. When we respond to threats today, each and 
every response is fully coordinated with our colleagues at DHS.
    For example, the FBI and DOE keep DHS apprised of the operational 
status and geographic disposition of the DOE/National Nuclear Security 
Administration's nuclear search response assets, in accordance with the 
reporting processes outlined in the National Response Plan. During 
potential incidents or periods of heightened alert, DHS will be fully 
aware of operational response activities, including nuclear search 
operations, and provide this information to senior government 
officials, as required. This process ensures national-level 
integration, coordination and strategic focus.

        FBI AND DHS COORDINATION ON GENERAL AND SPECIFIC THREATS

    The FBI and DHS have also developed an operational agreement which 
provides additional guidance for coordination in nuclear/radiological 
detection and search operations--whether the threat response scenarios 
are very general or highly specific. As background, ``general threat 
response'' may be defined as an increase in the alert posture or 
actions taken to address increased threat traffic on nuclear/
radiological materials and/or devices where no specific geographic 
target has been identified. ``Specific threat response'' may be defined 
as actions taken to address a time-sensitive, credible threat that an 
unresolved detection event has occurred, or to address specific 
information suggesting that a particular city or location may be the 
target of nuclear/radiological material or device. (It should also be 
noted that a general threat may evolve into a specific threat as 
investigators gather intelligence.)
    For a general threat response, DHS will lead interagency 
coordination in developing courses of action and recommendations for 
the Secretary of Homeland Security and other officials regarding the 
overall distribution of search response assets. The Secretary will 
direct deployment of search assets. Once employed operationally, the 
FBI will assume tactical control of nuclear search assets, unless those 
assets are deployed in direct support of DHS component entities, such 
as Immigration and Customs Enforcement (ICE), Customs and Border 
Protection (CBP) or the United States Coast Guard (USCG). Under this 
scenario, ``tactical control'' refers to temporary directive authority 
and control over those nuclear search response assets in support of 
planning, mission objectives and operational taskings developed by the 
FBI or other federal law enforcement entities.
    For a specific threat response of a time-sensitive nature within 
the jurisdictional authorities of the FBI, the FBI will immediately 
notify and coordinate mission tasking with DHS and DOE. To facilitate 
the fastest possible federal government response, DOE will immediately 
deploy a tailored search package appropriate for the situation. In the 
event that DHS does not agree with the deployment or proposed 
employment of this search package for any reason, redirection of DOE 
assets may be effected by the Secretary of Homeland Security in 
consultation with the Attorney General.
    During a general or specific threat response, DHS will deploy a 
liaison official to the FBI Strategic Information and Operations Center 
(SIOC) as well as the local FBI command post. This DHS official will 
have full access to all required operational search information, 
participate in joint planning, and maintain connectivity with the local 
Principal Federal Official cell, if one is activated, in accordance 
with the National Response Plan. The FBI, through the SIOC, will 
provide the primary pipeline of communication to headquarters elements 
in Washington. The FBI will also keep the Homeland Security Operations 
Center (HSOC) fully informed of all appropriate information. The FBI 
will be responsible for providing information concerning the nature, 
timing, location and results of search activities to appropriate 
entities, including the White House, back through its chain of command.
    The DHS-managed Nuclear Assessment Program (NAP) has also proven to 
be a valuable asset in helping to determine the credibility of nuclear/
radiological threats. This program, which is coordinated through the 
Lawrence Livermore National Laboratory (LLNL) in Livermore, CA, 
provides assessments of incidents not only involving communicated 
threats to use nuclear/radiological materials but also alleged 
possession of such materials. The FBI utilizes this analysis, in 
conjunction with its own nuclear specialists and behavioral analysts, 
to determine the credibility of a particular threat and to determine 
the level of response that may be required.

   FBI AND INTERAGENCY EFFORTS TO PREVENT TERRORISTS FROM ACCESSING, 
                  USING, AND SMUGGLING NUCLEAR WEAPONS

    The FBI participates in a number of interagency efforts to help 
prevent terrorists from accessing, using, or smuggling nuclear 
weapons--or the materials needed (such as enriched uranium or 
plutonium) to construct a nuclear weapon. For instance, the FBI 
coordinates extensively with DHS/CBP in response to incidents involving 
possible detection of nuclear/radiological material at U.S. Ports of 
Entry. The FBI and DHS both maintain extensive ``reachback capability'' 
to obtain rapid technical analysis of possible nuclear/radiological 
material to obtain a more definitive analysis of the origin and nature 
of the suspect material from DOE personnel and/or other subject matter 
experts. FBI field personnel can send technical spectra back to 
national laboratory experts who can immediately analyze the data.
    Other interagency forums include nuclear smuggling focus groups, as 
well as various joint training initiatives. For example, since 1999, 
the FBI and DOE have jointly coordinated the SILENT THUNDER Tabletop 
Exercise (TTX) Program. These exercises bring together FBI personnel, 
state and local law enforcement officers and emergency management 
personnel, and DOE facility management and security personnel. The 
exercises are no-fault tabletop exercises designed to familiarize key 
decision makers and managers with the U.S. government's interagency 
emergency response to a nuclear or WMD domestic terrorism incident. 
Approximately four exercises are conducted per year throughout the 
nation.
    The FBI also participates in training with foreign law enforcement 
personnel, which is designed to increase their capability to search, 
detect and interdict nuclear materials being illicitly transported. In 
addition, the FBI provides foreign law enforcement assistance and 
coordination through its Legal Attache Program, currently in 53 
countries worldwide. Our hope is that aggressive investigation and 
prosecution of illicit nuclear material trafficking incidents--on the 
international level--will discourage and hinder thefts of such 
material.
    On the national level, the FBI's Nuclear Site Security Program 
requires each Field Office to establish close liaison with security 
personnel at critical nuclear facilities (including DOD and DOE sites, 
as well as commercial nuclear power facilities under the cognizance of 
the Nuclear Regulatory Commission). This program also requires FBI 
Field Offices to develop site-specific incident response plans and to 
exercise those plans with facility security personnel.
    The FBI has also assumed a leadership position within the Domestic 
Nuclear Detection Office (DNDO). The DNDO is an interagency effort to 
oversee the deployment of detection architecture with the goal of 
strengthening our capability to detect, report, and respond to attempts 
to import, assemble, or transport a nuclear explosive device, fissile 
material, or radiological material intended for illicit use. An FBI 
detailee currently serves as the Director of the Office of Operations 
Support, one of 5 offices which comprise the DNDO. In the near term, I 
will be dedicating additional FBI detailees to the areas of strategic 
planning, red cell planning, information analysis, reachback 
development, and training and protocol development.

                         OTHER LIAISON EFFORTS

    While close liaison has always been standard at U.S. nuclear sites, 
it should be noted that the events of 9/11 have dramatically increased 
the level of awareness regarding any suspicious activity at these 
sites. Our partners at these sites are now even more proactive in their 
efforts to report even potentially suspicious incidents to local law 
enforcement and/or the FBI.
    The establishment of a National Joint Terrorism Task Force (NJTTF) 
at FBI Headquarters and the expansion of the Joint Terrorism Task 
Forces (JTTFs) in the field have also increased information sharing and 
improved response coordination. There are now over 100 JTTFs 
nationwide, consisting of various representatives of federal, state and 
local agencies.
    The FBI is also a regular participant in the interagency review and 
update of the threat or potential threat to U.S. nuclear facilities and 
activities. The results of this annual review help to structure the 
postulated threat that DOD and DOE utilize to structure their 
protective forces.
    Chairman Linder and Members of the Committee, the FBI continues to 
work aggressively, both internally and with its partners at every 
level, to investigate, disrupt, and respond to potential or actual 
nuclear threats. We are committed to deterring crime and terrorism, and 
protecting our fellow citizens from the threat of nuclear weapons. We 
will do everything in our power to anticipate these threats and prevent 
them from becoming a reality.
    Thank you again for the opportunity to appear today. I would be 
happy to answer your questions.

    Mr. Linder. I have a couple. What are the roles, the 
various roles and responsibilities, of DHS, FBI and DOE, in the 
coordinating a nuclear terrorist--response to a threat?
    Mr. Krol?
    Mr. Krol. The Department of Homeland Security has the lead 
for providing expert recommendation and advice to the 
President. In the execution of that lead, in the event of an 
unfolding situation, a national significant security event 
would be declared and the Secretary of Homeland Security would 
most probably appoint a Principal Federal Official who would 
proceed to the scene of the activity.
    Mr. Linder. They have not mirrored the nuclear capabilities 
that your department has?
    Mr. Krol. That is correct, sir.
    Mr. Linder. How do they make these judgments?
    Mr. Krol. Through total immersion in the process that is 
ongoing. In this particular scenario, you would expect the FBI 
to be the Lead Federal Agency and that DOE would be the primary 
support for, say, radiological search. And you would expect 
those two organizations to keep the Principal Federal Official 
apprised on what the situation is and what the planning efforts 
are to proceed to the next step.
    We have exercised that on a couple of occasions, in 
exercise scenarios. And I think we have demonstrated that DHS 
is getting the information they need, and we have the ability 
to educate them on the spot with what is going on.
    Mr. Linder. You do your testing and game-planning with 
various local agencies, as well as?
    Mr. Krol. That is correct, Mr. Chairman.
    Mr. Linder. How do you deal with the interoperability 
problem that we have run into daily here?
    Mr. Krol. That is a challenge. There is no doubt about it.
    Mr. Linder. Well, who is working to solve that challenge?
    Mr. Krol. Department of Homeland Security. The DNDO office 
that was made reference to by Director Lewis is going to be a 
tremendous aid in coordinating across the various entities that 
exist in the United States to standardize and provide a concept 
of operations for execution of radiological counterterrorism 
activity.
    I am very optimistic that they will be able to have great 
impact in that area.
    Mr. Linder. When?
    Mr. Krol. I think it is a tremendous challenge, and I think 
it is going to take them some time. I mean, it is not going to 
come immediately.
    Mr. Linder. I thought you said the FBI is engaged in 
analysis of credibility of these threats? What do you do 
independent of the others?
    Mr. Lewis. I would not say we do it independent, sir, as 
much as we would do it to complement what Lawrence Livermore 
does today. You may know that they have been in the business 
for some time. And, of course, their product is one that we 
highly value and will seek every time.
    We have our own nuclear scientists down at Quantico. We 
also have behavioral scientists that, for instance, could 
listen to a tape recording or could evaluate the text of a 
letter. We will draw upon those individuals for whatever value 
they might add to that process.
    And please bear in mind that, whatever Lawrence Livermore 
tells us, whatever our own folks tell us, this is just a 
pointer, if you will. It is never going to solve anything or 
resolve anything. It is just some additional information for us 
to consider on top of everything else that we might collect 
during the course of investigation.
    Mr. Linder. And say you have considered and collected all 
this information, and DHS, and FBI, and DOE disagree. Who 
decides?
    Mr. Lewis. I am not sure I understand your question.
    Mr. Linder. Let me try it again. Let me try it in English. 
You have all got your independent analysis sources and you all 
examined your own sources, as well as the sources of the 
information from others. And you have a disagreement on the 
threat. Who decides?
    Mr. Krol. It is a group effort. We have been through this 
many times, and there have been disagreements. When one of 
these issues kicks off, what we expect is we go into a secure 
video-teleconference mode, where we have video-teleconferences 
twice a day, with all the agencies online coordinated by the 
White House.
    Mr. Linder. Who in the White House?
    Mr. Krol. Homeland Security Council and, in some cases, 
National Security Council. And what we expect in these VTCs is 
a constant give and take. People will disagree. Organizations 
will have look-ups. And we will come back again 4 or 5 hours 
later and proceed down the line.
    I have been through those about maybe eight or ten times 
now. And, at the end of the day, we are able to achieve 
consensus on a way ahead.
    Mr. Linder. Thank you.
    Mr. Langevin?
    Mr. Langevin. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your testimony today. I 
wanted to just ask you a couple of questions.
    And I guess the best place to start is, in the testimony, 
Mr. Lewis, you stated that DHS appoints a lead federal agency 
or officer, in event of a nuclear incident or the threat of 
one, and it would likely be that they would designate the FBI.
    Why wouldn't we just put the FBI in charge in the 
beginning? Do we need this level of bureaucracy?
    Mr. Lewis. Sir, let me clarify what we just said. DHS does 
not appoint the FBI to anything. The FBI's role, with respect 
to investigating terrorism, is laid in a statute. That statute 
was backed up most recently by HSPD-5. And the statute says 
that the attorney general has primary responsibility for 
addressing acts of terrorism here in this country.
    As a practical matter, when we are looking at a terrorism 
matter that begins to involve or involves a threat of a nuclear 
device, as has been noted here, we will engage several other 
members of the community in looking at that threat, often times 
well before any decision is made to roll search assets, if, in 
fact, we can get there.
    You can rest assured that, in today's times, before any 
decision to roll assets are made, several agencies around town, 
through the secure video-conferencing that Admiral Krol has 
just mentioned, have discussed the matter back and forth, most 
likely on multiple occasions.
    I have been involved in four or five of those.
    Mr. Dicks. Would you tell us the name of some of those 
agencies you just talked about?
    Mr. Lewis. That are in the morning conference?
    Mr. Dicks. Yes.
    Mr. Lewis. It is chaired by Homeland Security. DOE is 
there. Central Intelligence is there. National Security is 
there. NCTC is there.
    Mr. Krol. Defense Department.
    Mr. Lewis. DOD, of course.
    Mr. Krol. Justice.
    Mr. Lewis. Treasury.
    Mr. Krol. Treasury.
    Mr. Lewis. This happens every morning, sir.
    Mr. Dicks. It is good to hear who they are.
    Mr. Lewis. Essentially, the hot topics of the day, if you 
will, are discussed each and every morning.
    Mr. Dicks. Thank you.
    Mr. Lewis. Yes, sir.
    Mr. Langevin. But let me ask you, given FBI's lead role in 
counterterrorism and DOE's nuclear expertise, why not just put 
the FBI in charge? Are we creating another level of bureaucracy 
by having suddenly DHS call the shots?
    Should the committee revisit the Homeland Security Act to 
give DHS a role, but not the lead role?
    Mr. Lewis. Well, from my seat, sir, I do not. I do not see 
that they have the lead role. I think that they own the assets, 
so to speak, until such a point that an FBI investigation 
determines the threat to be of a specific nature.
    And at that point, my experience has been over the last 
year-and-a-half--and I have been involved now with three or 
four of these--it is very easy for us to draw down on what has 
been a very good and long relationship with DOE and get assets 
rolling.
    In today's times, given the creation of DHS, that call is 
immediately followed by a call to DHS where all three of us are 
coordinating very closely. The MOU that has been struck between 
us and DHS does allow the Secretary to step in and challenge 
the FBI's deployment of resources.
    And should it get to a point where the Secretary and the 
Attorney General actually have to talk because there is a 
difference of opinion, if they cannot solve it there, there is 
a process for them, where they take that before Homeland 
Security and/or National Security.
    I do not believe--and, Admiral, correct me if I am wrong--
if we had ever seen one at all like that.
    Mr. Krol. No, I think in execution it is working exactly as 
you outlined. A threat is identified. The FBI asks us for 
support. We provide support. And as we are going out the door, 
we inform Homeland Security. That is the execution model that 
we are using, the execution model that was en vogue before DHS 
stood up.
    Mr. Langevin. I just want to quote here from the Homeland 
Security Act. And this is--it is a nuclear incident response. 
It is in general. ``At the direction of the Secretary, in 
connection with an actual or threatened terrorist attack, major 
disaster, or other emergency in the United States, the Nuclear 
Incident Response Team shall operate as an organizational unit 
of the Department. And while so operating, the Nuclear Incident 
Response Team shall be subject to the direction, authority, and 
control of the Secretary.''
    And my question is, would it be more practical to have the 
FBI in charge with a role for DHS, but not necessarily in 
charge?
    Mr. Lewis. Sir, after the date that what you are reading 
was written, the FBI and DHS, recognizing that that language 
was not entirely consistent with what is written in statute 
regarding our responsibilities, came together and drafted an 
MOU, which, at least as far I am concerned, straightens out the 
agreement or the operational agreement between DHS and FBI.
    I do not have today any problems at all with deployment of 
nuclear search assets. The emergence of DHS and having them as 
part of the federal team now has not hindered me in any way, 
shape or form. We came together quickly. We drafted an MOU. We 
both agreed with what is in here. And I think it is fine.
    I understand why you might raise that question, having read 
what you just did, because it does kind of conflict with what 
is in statute. But, again, that is precisely the reason why we 
came together and drew up an MOU, to clarify that.
    Mr. Linder. This is statute.
    Mr. Lewis. Sir?
    Mr. Linder. It does not conflict with the statute; this is 
statute.
    Mr. Krol. He is making reference to the MOU, I believe.
    Mr. Dicks. Is the MOU consistent with the statute?
    Mr. Lewis. Right. The MOU goes beyond the actual words of 
the statute. I can tell you that our attorneys within the FBI, 
as well as the attorneys over at DHS, poured over both of 
these.
    And I am not an attorney, sir, but I know that, after both 
shops looked at it, you know, the offices of general counsel, 
they are fine with it.
    Essentially what it does is protect deployment. It favors 
rapid deployment to get the job done. And it allows for--
    Mr. Dicks. That is what we want.
    Mr. Lewis. Yes.
    Mr. Linder. The memorandum still leaves the Secretary of 
Homeland Security in control. ``While so operating, NIRT shall 
be subject to the direction, authority, and control of the 
Secretary of Homeland Security.''
    What person would take control of nuclear search assets and 
so should activities will be delegated to the Secretary of 
Homeland Security and appropriate law enforcement entity or 
organization. In other words, this response team--and 
responsibilities--
    Mr. Lewis. Are you reading from MOU between DHS and 
Department of Energy, sir? If I may? Or is it ours?
    Mr. Linder. Evidently.
    Mr. Langevin. If I could inquire, Mr. Chairman?
    Mr. Linder. Sure.
    Mr. Langevin. The MOU that you are describing, that is 
something that the FBI has in your possession. It is that 
something we would forward to the committee?
    Mr. Lewis. Absolutely, if they do not have it already, yes.
    Mr. Dicks. Could I ask on this point?
    Mr. Lewis. Please
    Mr. Dicks. Was this done--did the Secretary of DHS delegate 
this responsibility to the FBI? I mean, that sounds like, in 
that language, the head of the DHS could say, ``I want the FBI 
to take the lead on this.''
    Mr. Lewis. The MOU executed between two agencies allows the 
FBI to have tactical control of nuclear assets when they are on 
the ground. They do not belong to me, but when they are 
deployed for case reasons, because we have something that we 
need to look for, at that point in time, the FBI has control of 
those. And we use them to execute our searches.
    Mr. Dicks. Is this their equipment? Is this the Department 
of Energy equipment?
    Mr. Lewis. Yes, sir.
    Mr. Dicks. That is what we are talking about?
    Mr. Lewis. Yes, sir.
    Mr. Dent. Thank you, Mr. Chairman. Afternoon, sir.
    How often are your capabilities exercised over the years? I 
know you have been around for decades.
    Mr. Lewis. Yes, but not in the same position. I have been 
in my current seat since May of 2004. And I want to say that, 
on three or four occasions, this has been exercised.
    And from my seat, not to make this sound too simplistic, 
what we have today works well. I can count on very rapid, 
cooperative contact with DOE to get assets rolling quickly when 
I need them. And I have had no problems, with respect to 
interference with a deployment from DHS or anybody else.
    And I will say, throughout this entire process--and, 
normally, we can see these things coming. So, in the time 
leading up to this, the FBI, and DOE, and DHS are not acting in 
a vacuum. There are many other agencies involved.
    Mr. Dent. These capabilities are exercised three or four 
times. Is that since you have been there, you said, or since 
the inception?
    Mr. Lewis. Yes, sir.
    Mr. Dent. What was the most recent one?
    Mr. Lewis. Approximately 9 or 10 months ago, New York City.
    Mr. Dent. Okay. And I guess my question would be, are there 
plans in place--NIRT teams plans in place that will train local 
and state law enforcement officials, train in the search of a 
nuclear device or radiological dispersion device?
    Mr. Lewis. That is one of the reasons why the new DNDO was 
set up. One of the things that is going to happen inside of 
DNDO, as they build a bigger nuclear detection architecture for 
the U.S., is state and local law enforcement entities are going 
to be right in the middle of this mix.
    DNDO is going to help states acquire, help states use, in a 
standardized format throughout the U.S., nuclear search assets.
    Mr. Dent. And finally--
    Mr. Lewis. I am sorry, detection, not search. Detection. 
There is a difference.
    Mr. Dent. And then finally, what type of research are you 
engaged in right now in nuclear detection? And are you making--
and what is the sense of investment in that area? And is it 
effective?
    Mr. Krol. From our perspective, we have a detection 
research capability that we work on. We are constantly working 
on coming up with more sensitive meters, more portable meters.
    A lot of our work is in support of federal agencies. We 
have to blend in to the general populace we are working in so 
we do not create a question or a panic. So we apply budgetary 
money to upgrade ourselves constantly. The figure that we are 
applying is around $10 million a year.
    Mr. Dent. In terms of the sensitivity of those detection 
devices, I know sometimes they are a little too sensitive. For 
example, certain things that get picked up. Bananas, I guess, 
for example, emit a certain radiation.
    How good is the technology at discriminating against those 
benign objects?
    Mr. Krol. Well, it is not. You have to have highly 
sensitive detection devices, especially when you are dealing 
with rolling stock, moving stuff, trucks and so on. And so you 
have to have a reasonable sensitivity.
    And we do get hits on naturally occurring sources of 
radiation. And you just have to run those down. There is no way 
out of it.
    In some ways, we are a slave to physics. I mean, physics is 
what physics is. And we are dealing in a continuum that the 
rules have not been changed in a long time.
    So, again, DNDO, we are optimistic that in their effort to 
bring together architectures and do hardcore research into new 
possibilities for radiological detection that they have an 
opportunity to make a difference.
    Mr. Linder. Would the gentleman yield?
    How close are we to detection instruments that identify 
isotopes?
    Mr. Krol. Oh, we can do that now. We can get a hit and 
identify an isotope. We can tell you if it is strontium-90, or 
cesium-137, or cobalt-60.
    Mr. Linder. Shouldn't that prevent you from having false 
hits?
    Mr. Krol. It can. It can. And it does in many instances. 
The great equalizer for radiological search, from our 
perspective, is TRIAGE. That is the home team capability, where 
our teams can feed back into the weapons labs and get the 
absolute best expert analysis of what we have provided to them 
for identification.
    Mr. Dent. And just finally here, are these detecting 
devices--do you believe that a lot of our local law 
enforcement, at least in our major metropolitan areas, are 
adequately equipped with devices like that?
    Mr. Krol. That is a hard question. They are equipped. And I 
would say they are adequately equipped.
    I think the issue that is a problem is that they are not 
adequately trained, in many cases. And I do not blame them 
necessarily, because they have a wide variety of issues they 
deal with, the fire department--and the radiological--you know, 
they do not spend a lot of time on radiological training.
    Mr. Dent. Thank you.
    Mr. Linder. Mr. Dicks?
    Mr. Dicks. Where do we get most of the--where do we get 
most of the information about an incident? Where does that come 
from? Does that come from intelligence sources or--which we 
probably cannot talk about here--but where do you get your 
information?
    Mr. Krol. Usually, there are two major sources that cause 
us to go out the door. That would be an intelligence stream 
that leads the FBI or another federal agent in the direction 
that there is something going on radiologically somewhere in 
the country. Or somebody, a fire department or some, has passed 
a meter in front of somebody or something and the meter has 
moved. And then we are asked to come in and be the arbitrator 
of what they have.
    Mr. Dicks. Now, where is all this equipment kept? And how 
many locations do you have?
    Mr. Krol. We have eight major centers of excellence tied to 
the weapons labs around the United States. We have 29 
deployable teams. Our rule is 4 hours deployed.
    Mr. Dicks. Do you have your own airplanes?
    Mr. Krol. We do not have our own airplanes, but we are--
some of our teams are in places where we can get access to 
aircraft. Most of our deployments are by ground. Most of the--
    Mr. Dicks. Do you have pre-arranged arrangements to get 
aircraft?
    Mr. Krol. No. And we do not need them in most places. For 
example, the team we have at Brookhaven is equipped with vans. 
And we can get downtown to New York City in an hour.
    Mr. Dicks. What about Washington, D.C.?
    Mr. Krol. Washington, D.C., we have team at Andrews. And so 
Brookhaven, Andrews, Oak Ridge National Labs, Savannah River, 
Albuquerque, Idaho National Lab, Hanford, in your area--
    Mr. Dicks. Right.
    Mr. Krol. --and in Livermore and Las Vegas. So when you lay 
that out on a map, there are only a few areas that are 
difficult to get to from a time perspective.
    The Argonne National Lab in Chicago, if they have to go to 
North Dakota, you know, we have an agreement in Chicago with 
Coast Guard to provide us transportation, air transportation. 
We are trying to provide air transportation to ourselves using 
the National Guard, but that is a work in progress.
    But in most--
    Mr. Dicks. Well, we are getting rid of a lot of the 
National Guard aircraft, too.
    Mr. Krol. Yes, sir. But we do not need--the National Guard 
has a small aircraft, a Twin Otter, that was just perfect for 
us, because our teams are five-to seven-man teams with about 
250 pounds of equipment.
    But most of the places that we need to deploy that involve 
metropolitan areas, we are 3 hours driving max from where we 
need to get. So that is our situation.
    Mr. Dicks. And how many times a year do you exercise this?
    Mr. Krol. We actually go on deployments on the average of, 
I would say, three times a month. I mean, real deployments that 
are driven by one thing--
    Mr. Dicks. Like incidents, I mean, these are--
    Mr. Krol. Incidents--
    Mr. Dicks. You really test this system. You know what it 
will do.
    Mr. Krol. We test this system. That is why I made a point 
in my opening statement that this is not a system that looks 
good on paper. I mean, we--and if we miss our deployment time, 
we go back and do lessons learned. But very seldom to we miss 
our deployment time.
    We have people watch billed. We know who to reach out and 
touch and make move on short notice.
    Mr. Dicks. Now, when you are having all these meetings, are 
the HHS people involved or the DHS people, who are going to 
deal with the victims of an attack?
    Mr. Lewis. DHS is a regular member, sir. Yes.
    Mr. Dicks. And, you know, Mr. Chairman, I hesitated to 
bring this up, but I cannot help myself.
    I am still concerned that we are not, you know, on our 
BioShield effort, that we are still not--we still do not have 
the attention of the administration. I hope these gentleman 
will take this back to one of your meetings and maybe you can 
have a discussion on it. Maybe you can do better on this than 
we have done, in terms of oversight.
    But we are worried that we are not getting enough of these 
drugs that could deal with ARS, acute radiation system, a 
stockpile. And the companies out there are extremely 
frustrated. They want to--some of these people have gone out, 
put up their own money to try to develop these kinds of drugs 
that would help with the people who were exposed to radiation.
    And I just worry that all the work we are doing here--
prevention is obviously, in this case, uno, numero one. I 
understand that.
    But, God forbid, if something does happen and we are not 
prepared to have the drugs in place so that these people can be 
treated within 3 or 4 hours, whatever it takes, we are going to 
lose a lot of people that we did not have to lose. And we are 
going to look back on this like we looked back on 9/11 and say, 
``Why didn't we do something?''
    So you two the very responsible officials in this 
administration. I hope you will start asking some questions. We 
are trying to ask the questions. We are not getting the answers 
that we think the American people would expect us to get.
    And this is part of this whole scenario. I hope you will 
try to help us on this.
    Thank you, Mr. Chairman.
    Mr. Linder. Let me ask you one more question. I assume 
that, if we have a biological event, the FBI will be involved 
in the intelligence--
    Mr. Lewis. Yes, sir.
    Mr. Linder. Who would you look to without the DOE?
    Mr. Lewis. Who would I look to if--
    Mr. Linder. If you do not have the DOE?
    Mr. Lewis. I am sorry. I still did not get the last part.
    Mr. Linder. Who would you look to--like, currently, you 
look to DOE for flushing out the analysis of the information. 
Who would you look to with a biological event?
    Mr. Lewis. We have reached back both at Quantico, for our 
own scientists, and beyond, in terms of evaluating precisely 
what kind of event we are dealing with. I did not come prepared 
today to talk to you about bioterrorism, but if you want me to 
take that back, or if you want to send the question over, I--
    Mr. Linder. I hope we do not just reinvent the wheel. I 
hope we do not just send one of these for every different bug 
we have got, every kind of nuclear event that we have.
    Mr. Lewis. We have a separate set of experts that we have 
relied upon for years that give us quick, reach-back expertise 
so that we can evaluate quickly and conclusively what it is we 
are dealing with in that particular area. I would be delighted 
to share that with you, if you wanted to send a question my 
way.
    Mr. Linder. We probably will.
    Mr. Langevin?
    Mr. Langevin. I would just like to revisit the discussion 
we were having a minute ago. I just want to be clear you are 
willing to forward that MOU to the committee between the--
    Mr. Lewis. Yes. I will get my hands on the signed copy. I 
do not have a signed copy in front of me, but I do know it was 
signed by Admiral Loy when he was with us and the FBI. And I 
will make sure you get it.
    Mr. Langevin. In your opinion, would it be wise for this 
committee to revisit the Homeland Security Act to make the 
authority more clear, to codify that, so that the statute would 
change to reflect the MOU?
    You know, I just have concerns when I read things that I 
have--a veteran--member was quoted in a June 2005 National 
Journal article saying that adding DHS to the chain of command 
compounded the confusion of multiple agencies trying to report 
straight to the President.
    The last thing we want in a nuclear event or a threat of a 
nuclear event is to have confusion out there as to who is 
reporting to whom. And, you know, we are on your side.
    Mr. Lewis. I understand.
    Mr. Langevin. We want to work with you. If there is 
something you need, this is the time to ask.
    Mr. Lewis. It is not broke, as far as I am concerned. I 
come from the operational side of the house. If I have got a 
situation to deal with this afternoon, I have a very high 
degree of confidence that, working with my DOE and DHS 
partners, I can put search assets on the ground very quickly. I 
do not have any problem with that.
    I do not spend a lot of time evaluating exactly what the 
statute says, the two different statutes, the one that gives 
the attorney general responsibility for investigating terrorism 
and the one that you have read from today.
    There is language in there that, when you look at it, it 
appears to some, I suppose, that maybe it could be strengthened 
or clarified. It does not hamper me.
    I would invite Mr. Krol to chime in here. I have what I 
need today to respond very quickly to take care of business.
    Mr. Krol. I agree with Director Lewis completely. And I 
think, if you go back to 2002, to 2003, there was a lot of 
muscling with about who was in charge. I think all the effort 
that we have made among our three organizations, including the 
MOU, has in great degree mollified those concerns.
    And I think we are all operating with a great understanding 
on how we are really going to execute our mission.
    Mr. Linder. Mr. Dicks?
    Mr. Dicks. No more questions.
    Mr. Linder. If there are not more questions, without 
objection, this hearing is adjourned.
    Mr. Dicks. Mr. Chairman, could I ask one thing, just one 
thing?
    Tell us the difference between the NEST teams and the RAP 
teams?
    Mr. Krol. The RAP teams is a subordinate organization to 
NEST. The Radiological Assistance Program is the program I made 
reference to where we had 29 teams spread across the country. 
They are the primary search engine, if you will, if they are 
needed. They are first out the door.
    From that level on, we can go to a high-level search with 
the Search Response Teams that we have in two locations, Nevada 
and inside the NCR at Andrews Air Force Base. In fact, NEST is 
the overall umbrella that covers all our capabilities, 
including Render Safe.
    Mr. Dicks. Okay. In both of your experiences, have you ever 
had a time when you could not get an airplane? When you could 
not get in--
    Mr. Krol. No.
    Mr. Lewis. No.
    Mr. Dicks. Never had a problem? This never has come up?
    Mr. Krol. Well, you are--Congressman, you have probably--
when you say you have never had a problem, I mean, we--
    Mr. Dicks. Well, I mean, if you had a problem, you called. 
They said, ``Well, we do not have any planes for you.'' They 
tell us that all the time.
    Mr. Krol. No, it is--
    [Laughter.]
    No. That may be the first answer, but persistence usually 
prevails when we--
    Mr. Dicks. So you have had a problem?
    Mr. Krol. Well, initially, right out of the barrel. But, 
like I said, persistence prevails. And when you declare you 
have a national mission, everybody lines up.
    And I operate from a different perspective, in that I do 
have DOE aircraft available to me, you know, in Albuquerque. So 
I can get on my own airplane in many cases, because our center 
of excellence for a lot of these assets, including particularly 
Render Safe, is in Albuquerque.
    So it is a manageable problem, is the way I would answer 
the question.
    Mr. Dicks. Now, we make clear we can make some plans 
available, if there was a need for some dedicated aircraft. I 
mean, I can see all the training you do. I mean, a few 
airplanes--these are small airplanes, too. These are not, you 
know, budget-busters. You know, think about it.
    Mr. Krol. I think we are okay.
    Mr. Linder. Thank you, both. Thank you very much.
    [Whereupon, at 2:27 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
